 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




PUBLIC HEALTH SERVICE' S OVERSIGHT
   OF THE HILL- BURTON PROGRAM




               AUGUST 199
                          OFFCE OF INSPECfOR GENRA
The mision of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servces , the
Offce of Investigations , and the Offce of Evaluation and Inpections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servce for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,and the public. The fmdings and recommendations contained in these inspection
report generate rapid ,accurate , and up- to- date information on the efficiency, vulnerabilty,
and effetivenes of departmental programs. This report was prepared in the Chicago
Regional Offce under the diection of Wiliam C. Moran , Regional Inspector General and
Natalie Con , Deputy Regional Inspector General. Project staff:

REGION
John M. Traczyk (Project Leader)
                                                       HEUARlE
                                                       Ruth Folchman

Thomas F. Komaniecki

Margaret Shell





To obtain a copy of this report , call the Chicago Regional Offce at (31 ) 353- 4124.
 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




PUBLIC HEALTH SERVICE' S OVERSIGHT
   OF THE HILL- BURTON PROGRAM




          AUGUST 199 OEI-05-
                 EXECUTIVE SUMMAR
PUROSE
This inspection examines the processes used by the Public Health Servce (PHS) to
evaluate and monitor the uncompensated care obligations of health care facilties
assisted by the Hil- Burton program.


BACKGROUN
The Hospital Survey and Construction Act , commonly known as the Hil- Burton Act
authorized Federal grants , loans and loan guarantees to assist States and communities
in constructing needed hospital and public health centers.

To be eligible for Hil- Burton funds , the applicant had to be a public or not- for- profit
entity. The Hil- Burton Act required that the applicant maintain this status for a
period of 20 years. These facilties were to make available a reasonable volume of
free servces to persons unable to pay (uncompensated care obligation).

Since 1946 ,   more than $4 bilion in Hil- Burton funds have aided nearly 6 900 hospitals
and other health care facilities in 4 000   communities across the United States. As of
April 1991 ,   2 610   Hil- Burton
                               facilties remain obligated and must provide a reasonable
amount of uncompensated care each year. The cooperation of facilties that have
received Hill- Burton grants is important to achieving the Department' s strategic goal
to improve access to health care for all Americans.


METHODOWGY
We intervewed PHS headquarters ' staff and staff in the 8 regional offices which
account for 92 percent of the remaining Hil- Burton workload. We gathered and
analyzed financial and other data provided by PHS headquarters and regional offices.


FIINGS
       Fif- three percent of Hil-Burton facilties currently obligated are not providing
       sufcient uncompensated care to meet their annual obligation.
       Reliance on self-reported data and inadequate record retention compromise
       PHS monitoring efforts.

       Complaint investigations resolve individual problems but do not ensure facilty
       compliance with the Hil- Burton      requirement to provide uncompensated care.
       The PHS lacks authority to directly enforce compliance             with Hil- Burton
       reguations.

       Facilties transferrng ownership after 20 years may cause the Hil- Burton
       program to lose a portion of the uncompensated care available.

       Nearly $50 milion recovered from Hil- Burton               facilties was not available to pay
       for free medical care.


RECOMMATIONS
We are recommending the followig improvements to further strengthen the processes
used by PHS. The PHS should:

               develop methods for independent verification of information provided by
               facilties during substantial compliance audits and complaint
               investigations.

               expand their investigation when a complaint alleging noncompliance is
               substantiated or revise the          Guide to Conducting Substantial Compliance
              Reviews and Audits             to ensure that auditors clearly understand that an
               expanded compliance review should be conducted on facilities found to
              have substantiated complaints.

               ensure that regional offces maintain records for a minimum of 5 years
               after the close of a substantial compliance audit or complaint
              investigation.

              seek legislative authority to enforce compliance through administrative
              remedies.

              seek legislation that would allow for recovery of the uncompensated care
              obligation if a deficit remains at the time of a post 20 year transfer.

              seek legislation that would allow for the return of monies recovered
              from facilties back into PHS grant programs.

The PHS has informed us that it has taken action on five of our recommendations.
They will not seek legislative authority to enforce compliance until they have had time
to study why facilities are in deficit and to develop alternatives that would assist
facilties in achieving compliance. If progress is not made in developing alternatives to
assist facilities in achieving compliance at the end of 1 year , PHS will seek legislative
authority to enforce compliance through administrative remedies as suggested in this
report.
                                                        .............................................
                                         . . . . . . . . . . . ..
                      . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. ...
                                                                        .. .. .. ..   .. ... .. ..
                                                                                 .. .. ..          .. .. .. ... ...... ... .. .. .. .. .. .. .. .. .. . .. .. .. .. ..... . ..
                                                                                       .. .. .. .. .




                                TABLE OF CONTENTS

                                                                                                                                                                   PAGE
EXCU SUMY

INODUCfON .
FIINGS                                                                                                                  ...................5
       Fifty- three percent of Hil- Burton facilties
       currently obligated are not providing suffcient
       uncompensated care to meet their annual

       compliance level. ............................................... 5


       Reliance on self-reported data and inadequate

       record retention compromise PHS monitoring efforts . . . . . . . . . . . . . . . . . . . . 5


       Complaint investigations resolve individual
       problems but do not ensure facilty compliance
       with the Hil-Burton                   requirement to provide
       uncompensated care. ............................................ 7


       The PHS lacks authority to directly enforce

       compliance with Hil-Burton                             regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


       Facilties transferrng ownership after 20 years
       may cause the Hil- Burton program to lose a
       portion of the uncompensated care available. .......................... 8

      Nearly $50          milon recovered                        from Hil- Burton
      facilities was not available to pay for
      free medical care.                    .............................................. 9


RECOMMATIONS
APPENICE
A: PHS Comments
                                                                                                                                             . . .. A­
B: OCR Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                    . . . . . . . . . . .. B-
                            INTRODUCTION€
PUROSE
This inspection examines the processes used by the Public Health Servce (PHS) to
evaluate and monitor the uncompensated care obligations of health care facilties
assisted by the Hil- Burton program.


BACKGROUN
In 1946 ,   Congress passed the Hospital Survey and Construction Act , commonly known
as the Hil- Burton   Act. Since 1946, more than $4 bilion in Hil- Burton funds have
aided nearly 6   900 hospitals and other health care facilities in 4 000 communities
across the United States. These other health care facilties include public health
centers , nursing homes , chronic disease hospitals and other tyes of facilities. The
Hil- Burton program provided funds to facilities through 1978. As of April 1991 , 2 610
facilities continued to be obligated under the Hil-Burton program.

To be eligible for Hil-Burton funds , the applicant had to be a public or not- for- profit
entity. The Hil- Burton Act required that the applicant maintain this status for a
period of 20 years. These facilties were to make available a reasonable volume of
free servces to persons unable to pay (uncompensated care obligation).

Each Hil-Burton      assisted facility is required to develop an uncompensated care
allocation plan , indicating the tye of servces available to persons unable to pay.
These facilities must also publish a notice of their obligation to provide free medical
care in a local newspaper, post notices within their facilty, and provide individual
notices of the availabilty of free care to all patients. Hil-Burton recipients are
required to report to the Department of Health and Human Servces (HHS) the level
of uncompensated servces they have provided at least once every 3 years.

The amount of uncompensated care a Hil-Burton recipient must provide is calculated
by PHS. The obligation is prorated over 20 years , dating from the completion of
construction of any facilty built with Hil-Burton funds. If a facilty does not provide
the required level of uncompensated servces in a given year , it must make up the
deficit , even if it takes longer than 20 years. Facilties that provide more than the
required level of uncompensated servces may have the excess credited to future years
of obligation. This means that a facilty may fulfil its uncompensated servces
obligation in less than 20 years.

For a person to be eligible for Hil-Burton coverage , they must not be covered under a
third part insurer or government program and fall into one of two income categories.
Persons whose income falls below the povert line are entitled to receive services
without charge. Hil-Burton facilities are not required to provide uncompensated
servces to persons whose incomes are more than the poverty level. If a facilty
chooses to provide servces to persons whose incomes are greater but not more than
double the povert level , they may do so at no charge or at a reduced charge.

Facilties may be certified under the public facilty compliance alternative. To qualify
as a public facility, the facilty must be owned by a unit of State or local government.
It must receive , on average , 10 percent of its operating revenue from State or local
government or provide uncompensated servces in an amount not less than twce its
annual compliance level. Currently, there are 591 facilties certified under this
alternative , many of which are located in impoverished areas of cities and provide a
substantial amount of free care.

The PHS monitors Hil- Burton facilties to assure that the obligations are discharged
and that the correct amounts of uncompensated care have been rendered. They also
conduct routine compliance monitorig, handle complaints and monitor facilties for
events that might change the terms under which the facility received Hil-Burton
assistance.

Monitorig Hil- Burton facilties involves a desk review of patient accounts , patient
eligibilty information , individual notices and facilty published allocation plans.
letter is sent to the facility at the end of its fiscal year informing them of PHS' s intent
to assess their compliance with Hil- Burton uncompensated servces obligations. The
letter requests that the facilty submit information concerning its Hil- Burton free care
program within 90 days of the close of its fiscal year.

The PHS uses the information provided by the facilty to verify the amount of
uncompensated care the facility claims to have provided. This is done by reviewing a
random sample of 10 approved patient accounts. If fewer than two mistakes are
found , then a facilty receives fu credit for the amount of uncompensated care
claimed. If two or more mistakes are found , then PHS will review a random sample
of 100 approved patient accounts. A percentage of correct determinations will then
be applied to the amount of uncompensated care claimed. The PHS also reviews
copies of the facilty' s policies , notices and other information on how its
uncompensated care program operates.

The Federal Government can recover Hil- Burton grant funds under certain
circumstances. These circumstances include situations where the facilty is sold or
transferred to an ineligible entity, or ceases to be used for an eligible purpose at any
time within 20 years following the completion of construction.

Sales and transfers of obligated facilties also affect their obligation to provide
uncompensated care. When the sale or transfer is to an eligible not- for- profit entity,       a
waiver can be granted. When a waiver is granted , the purchasing or controllng not-
for- profit entity agrees to assume any remaining uncompensated care liability of the
original Hil- Burton grantee. If the sale is to a for- profit entity within the 20 year
obligation period , a waiver can be granted if an irrevocable trust is established to
provide for uncompensated care. Twenty years following the completion of
construction , for- profit entities or nonprofit entities purchasing or assuming control of
Hil- Burton facilities are not required to provide any remaining uncompensated care
obligations.

Facilties may terminate their Hil-Burton obligation for one of several reasons:

       They have provided the required level of uncompensated servces.

       There has been a recovery of fuds due to the sale or transfer of the grant
       assisted facility to an ineligible entity, or due to the cessation of use for eligible
       purposes during the 20-year period of obligation.€

       They have met another requirement that allows their release from obligation.€

The Secretary has established seven strategic goals for HHS. One strategic goal is to
improve access to health care for all Americans. The effective implementation of the
Hil-Burton program is an important element in achieving this strategic goal.
MEODOLOY€
We intervewed PHS headquarters ' staff and staff in 8 regional offices that account for
92 percent of the current Hil- Burton workload. Regional offce staff in Boston , New
York , Philadelphia , Atlanta , Chicago , Dallas , Kansas City, and San Francisco were
intervewed. We asked them to provide information on how they evaluate and
monitor the uncompensated care obligations of health care facilties assisted by Hil-
Burton program grants. We did not inquire as to procedures and policies pertaining
to Hil- Burton loan guarantees or other programs under PHS jurisdiction.
We received information from PHS that identified all obligated facilties. We also€
received information that identified those facilties within their 20 year obligation€
period and those facilties that received waivers or were released from the Hil- Burton€
program. The databases provided information concerning the tye of facilty,
ownership and current status in the Hil- Burton program. We also received written
reports , financial and other information about facilties from regional office
investigative and audit fies and from PHS headquarters.

We spoke with regional offce staff responsible for monitoring facilties with
outstanding Hil- Burton obligations. We spoke with staff responsible for monitoring
changes in ownership and management that might result in a recovery of Hil-Burton
funds. We also spoke with personnel responsible for determining the amount of
uncompensated care credit facilties would receive. The method described by regional
staff for conducting substantial compliance audits and complaint investigations were
compared to operating procedure manuals issued by PHS.

The figures used throughout this report refer to facilities currently obligated under the
Hil- Burton          program.

Our review was conducted in accordance with the 
                   Interim Standards for Inspections

issued by the President' s                  Council on Integrty and Effciency.
                                      FINDINGS

Findig #1: Fif-thee percent            of Hi-Buron facities cuentl obligated are not
                 provdig sufcient uncompensted cae to meet their anua
                 compliance level.

               2 610 facilities were to provide approxiately $350 milion
As of April 1991 ,
uncompensated care to the American public. These facilities received almost $1.7
bilion in Federal assistance to aid in constructing needed hospitals and other health
care facilties. According to PHS data , 1 318 facilties have not provided sufficient
uncompensated care to indigent persons to fulfil their obligation under the Hil-
Burton program. The total amount of uncompensated care owed by these 1 318
facilties exceeds $816. 6 milion.

Many (1 169) of these 1 372 facilties have provided some uncompensated care. A few
have provided no evidence that they are operating an uncompensated care program
for those unable to pay. As of October 1 , 1990 , there were 203 facilties that received
zero certifications from PHS. A zero certification means that a facilty failed to
provide any uncompensated care creditable toward completion of its Hil- Burton
obligation. Some of the facilities , that have received zero credit , are nursing homes
and rehabiltation facilties. Some facilities are unable to fulfill their uncompensated
care obligation because they cannot attract persons unable to pay to their facilty.
Other facilties have no problem attracting indigent patients , they provide
uncompensated servces to all without taking an application or have a philanthropic
organization that pays for much of the care; consequently, they have difficulty meeting
their annual uncompensated care obligation. Recently, PHS organized a task force to
assess the problems faced by these facilities in meeting the requirement of the
regulations.


Findig #2: Reliance on self-reported data and inadequate record retention
                 compromi PHS monitorig effort.

Self-Reported Data

Each year PHS requests that all facilties in deficit submit an Uncompensated Servces
Assurance Report (USAR). The primary purpose of the USAR is to track the status
of uncompensated servce programs operated by facilities in deficit. It enables PHS to
provide early feedback where problems may be indicated. The USAR is also used by




             Total deficit calculated from PHS data provided on July 13 , 199. This total breaks down
as follows $1, 835,476  due from 10 facilities beyond their 20 year period and $814 833,098 due from
facilties within their 20 year obligation period.
PHS to review and approve:€

       facilty plans to make up deficits , and€

       claims of facilty financial inabilty.€

The USAR is also used to solicit information concerning changes in facilty€
management that might trigger the recovery of Hil-Burton funds.€

The USAR is primarily a PHS headquarters ' monitoring tool used for providing
technical assistance to facilties and is seldom , if ever , used by regional PHS staff who
feel the USAR information is often obsolete or inaccurate. The information on free
medical care reported by a facilty on the USAR can differ substantially from the
actual performance , which is determined by PHS regional staff when conducting a
substantial compliance audit of the facilty s records.

Substantial compliance audits involve a desk review of patient accounts , patient
eligibilty information , individual notices and facilty published allocation plans.
Information for these reviews is provided by the facilties and onsite reviews are rare.
A letter is sent to the facility at the end of its fiscal year informing them of PHS'
intent to assess their compliance with Hill- Burton uncompensated servces obligations.
The letter requests that the facilty submit information concerning its Hil- Burton
uncompensated care program within 90 days of the close of its fiscal year.

The facilty provides financial information that PHS uses to verify the amount of
uncompensated care the facilty claims to have provided. The facilty also provides
PHS with copies of its policies , notices and other information on how its
uncompensated care program operates. There are no instructions in PHS procedure
manuals that require compliance auditors to verify the authenticity of the documents
and information provided by the facility. The PHS does not require affdavits or other
sworn statements attesting to the authenticity of the documents being submitted. No
random calls are made to applicants to verify their actual application and no contacts
are made with patients whose applications for Hill-Burton assistance were denied.

Self-reported information is also used by PHS to resolve complaints. Many complaints
of Hil- Burton violations are received and investigated by telephone and involve little
or no documentation. The PHS case files may contain the complaint and a written
record of the telephone contact. Other investigations are resolved by asking the
facility to provide biling and other information about the patient filng the complaint.

These investigations and substantial compliance audits are vulnerable because they€
depend almost exclusively on information supplied by the facilty. There is no

independent validation of the information being supplied. Dependence on this self-€
reported information may compromise PHS' s compliance and complaint processes.€
Recrd Retention
Inadequate record retention policies do not permit independent validation of Hil-
Burton investigations and audits. We were unable to validate whether self-reported
information may have resulted in any erroneous decisions concerning compliance with
Hil-Burton requirements. We attempted to pull a sample of recently completed
substantial compliance audits to independently verify the information provided to PHS
by facilities. We could not conduct a verification of recently closed Hil- Burton cases
because documents and other information used by some regional offces to determine
facility compliance had been purged. Many of the documents we requested were
purged by some regional offces less than a year after the compliance audits were
conducted. During the course of our inspection, PHS instituted a new record
retention policy that requires all compliance and complaint records be maintained for
a 5-year   period. '


Findig #3:     Complait inestigations resolve indidua problems but do not ensure
               facity compliance with the Hi-Buron requiement to provide
               uncompensted cae.

Since October 1 ,  1985 , PHS has received 340 complaints against Hil-Burton obligated
facilities. Of these , 313 or 92 percent have been closed , and 27 are pending action.
Of the 313 closed complaints , 177 were dismissed , and 136 required decisions to be
rendered based upon the results of investigations or were settled by negotiation
between the parties. The PHS does not maintain in their records whether the decision
was resolved in favor of the complainant or the facility.

Complaints are analyzed and prioritized to determine whether they can be resolved
informally, require investigation without an onsite visit , or require on site investigation.
Informal resolutions usually involve a telephone call to a facilty requesting details of a
particular patient's denial of uncompensated care. Investigations without an onsite
visit usually involve examing documents and other evidence presented by the patient
and the facility. Investigations requirng an onsite visit are usually arranged in
advance. Ths ensures that documents and staff pertinent to the investigation will be
available durig the onsite visit.

Investigations are conducted using PHS prescribed procedures for recording,
investigating and resolving complaints. When a violation is found to have occurred
PHS will work with the facilty to resolve the complaint. If the facilty refuses to take
corrective action ,
                  PHS can request the Department of Justice (DOJ) to take legal
action to force the facility to take corrective action.

The narrow focus of PHS complaint investigations does not provide assurance that a
uncompensated care program is being properly operated by a facilty. The
investigative procedures used by PHS differ considerably from those used by HHS
agencies such as the Health Care Financing Administration (HCFA) and the Office
for Civi Rights (OCR). According to PHS procedures , PHS only investigates to
determe whether the complainant was wrongflly denied uncompensated care.
Unlike other HHS agencies , PHS does not expand its investigations when an allegation
of noncompliance is found to exist. The investigations do not verify whether other
individuals were improperly denied uncompensated care during the same period.
Consequently, PHS investigations do not determine if the violation was an isolated
occurrence or a pattern of noncompliance which should require additional action.

In December 1991 ,           PHS issued a revised   Guide to Conducting Substantial Compliance
Reviews and Audits.   We have examined the revised guidelines. We find no clear
instructions to auditors to expand the size of compliance samples so that a more
indepth review can be conducted for the time frame surrounding substantiated
complaints.


Findig #4: The PHS lacks authority to               diec enforce compliance with Hi-Buron
                       reguations.

Noncompliant facilities are sent a letter of findings specifyng the corrective actions to€
be taken. If corrective action is not taken within a certain time frame then the facility€
will receive zero credit for any of the uncompensated care servces they claim to have€
provided during the period under review. Facilties that fail to submit required€
documents and other evidence to support their claim for uncompensated care credit€
are also considered to be out of compliance and receive zero credit. The PHS wil€
review those facilities during the next audit cycle.€

When an obligated facilty refuses to cooperate with PHS in bringing its
uncompensated care program into compliance , PHS is without adequate recourse.
The only remedy readily available to PHS is the threat of zero credit for the free care
program a facilty operates. Unlike other HHS agencies that can levy fines and/or
suspend receipt of government funds , the PHS has no administrative authority or
other powers to compel compliance. The only remedial action available to PHS is to
litigate with noncompliant facilties through DO!. There has never been a case€
referred to DO! for litigation.€


Findig #5:             Facities trferrg owership afer 20 year may caus the Hi-Burton
                       progr to
                             € los a porton of the uncompensted cae avaable.
According to regulations published in 1987, if a facility fails to provide sufficient
uncompensated care to meet its annual compliance level , the facilty must make up
the deficit in subsequent years. The regulations state that a facilty' s " period of
obligation shall be extended until the deficit is made up. "z However , according to


            2 42 CFR
                          124.503 (b)€
advice given by the Offce of General Counsel in 1986 ,    if a facilty transfers ownership
after the 20 year recovery period , no action may be taken to recover the
uncompensated care deficit even if the facility was in deficit at the time of transfer.
Consequently, the American public has lost milions of dollars intended to provide free
medical care for persons unable to pay.

Currently, more than half of the facilties required to operate uncompensated care
programs are not providing sufficient servces to persons unable to pay to fulfil their
obligation under the Hil-Burton program. If these facilties were to transfer after 20
years , the American public would lose a portion of the free medical care available.
In 1990 , nearly a milion dollars worth of uncompensated care owed to the American
public was lost.  A review of the seven facilties that transferred ownership in 1990
after their 20 year recovery period showed that all seven facilties were not providing
sufficient uncompensated care to persons unable to pay to fulfill their obligation under
the Hil- Burton program at the time of transfer. These facilties had remaining
uncompensated care obligations totallng $865 699 at the time of their transfer. In
1990 alone the American public lost more than $850 000 in free medical care. If all of
the facilities currently operating in deficit were to transfer ownership at the end of
their 20 year obligation more than $1 bilion in free medical care will be lost by the
year 2000.




Findig #6: Nearly $50     mion recered from Hi-Buron facities wa not avaiable
              to pay for free medica cae.

As of March 31 , 1991 , PHS had completed 195 recovery actions. Nearly $50 milion in
interest and principle has been recovered and returned to the general treasury. In
contrast , as of that date , 14 trusts , valued at more than $21 milion , have been
established by hospitals that changed their status from a not-for- profit facilty to a for-
profit facilty. Unlike the 195 recovery actions , these 14 trusts continue to ensure free
medical care for persons unable to pay.

Whenever a Hil- Burton facilty has a transfer of ownership or management , it is
considered to have a " change of status. " When this happens within the 20 year
obligation period , an evaluation must be made whether the transferee or new owner
would have been qualified to fie an application under Hil- Burton. If the facilty
transferred to any person , agency or organization not qualified to fie a Hil- Burton
grant application , the government is entitled to recover the amount of the grant.
However, if the facilty agrees to establish an irrevocable trust , then a waiver may also
be granted. The amount of the irrevocable trust is the greater of twce the amount
the remaining uncompensated servces obligation or what would have been due under
recovery.

When an eligible entity assumes control and agrees t assume the Hil- Burton
obligations , a waiver can be granted and no recovery is necessary. The waiver is
granted because the change in control of the Hil- Burton facilty is to another public
or not- for- profit   facilty that would have been eligible under the Hil- Burton   program.

Hill-Burton fuds recovered from facilties are deposited into the general treasury and
are not available for free medical care. This differs from funds recovered through the
waiver process. When a waiver is granted to the new operator of a Hil- Burton
assisted facilty, the operator either agrees to fulfill the remaining uncompensated care
obligation , or to establish a trust to provide medical care to those unable to pay.
                     RECOMMENDATIONS€
We believe the following recommendations wil improve PHS efforts to monitor Hil-
Burton compliance. The PHS should:


      develop method for independent verication of inormation provided by
      facities durg substatial compliance audits and complait investigations.
                Independent verification of information and procedures used by a
                facilty, coupled with occasional unannounced onsite visits , would ensure
                that facilties comply with their Hil-Burton obligations. Unannounced
                visits would also serve to validate a facilty s system of notices
                recordkeeping practices and day- to- day operations. Advance notices
                provide time for facilties to create or clean up their records; enable staff
                to be tutored to ensure proper responses; and , can result in changes in
                procedures that ostensibly show compliance. The PHS should explore
                coordination with HCF A, OCR and others in obtaining independent€
                verification. Both HCF A and OCR have pertinent information about
                facilties that have received Hill- Burton assistance. Both have
                experience in developing independent verification of information.

       exand their inestigation when a complait alegig noncompliance €
       substatiated or reve       Gui to Condtig Substantl Compliance Revews
                                 the


       andAud     to ensure that auditors clearly understad that an expanded
       compliance review should be conducted on facities        found to have substatiated€
       complaits.

                Exanding either the investigation or compliance review to focus on time
                periods surrounding substantiated complaints provides greater assurance€
                that the problem was an isolated problem and not indicative of more€
                serious noncompliance problems.€

       ensure that regional offce maita               minim um of 5 year afer
                                                records for a                            the
       clos of a substatial compliance audit or complait investigation.
                During the course of our inspection , PHS issued a new policy requiring
                  year retention of all compliance audit and investigative records. This
                is consistent with the retention periods used by other HHS agencies.
sek legilatie authority to enforce compliance though administrtie
remedes.

      Garnishment of some Medicare/Medicaid funds , levyng fines or
      withholding of Federal grants and other Federal funds until a facility
      brings its uncompensated care program into compliance are examples of
      administrative remedies that would strengthen PHS' s ability to enforce
      compliance with the Hil- Burton uncompensated care requirements.


sek legilation that would alow for recery of the uncompensted cae
obligation if a deficit remai at the tie of a post 20 year tranfer.

      This would allow for the recovery of funds from facilties transferring
      after the 20th year. These funds would also be used in some manner to
      provide uncompensated care.

sek legilation that would alow for the retu of monies recovered from
facities back into PHS grt progr.


      This would allow for the continued funding of health related programs.
      These funds could be used to sponsor immunization programs , well baby
      programs and other community health servces.
AGENCY      COMM€
The PHS has inormed us that it has taken action on five of our six recommendations.
They felt that seeking legislative authority to enforce compliance was inappropriate at
this time because legitimate reasons may exist to explain why some facilties have
received little or no credit for uncompensated care. The PHS is currently studying this
issue and would like to develop alternatives that would assist facilities in achieving€
compliance. If progress is not made in developing alternatives to assist facilities in
achieving compliance at the end of one year , PHS will seek legislative authority to
enforce compliance through administrative remedies as suggested in this report.

The report has been modifed to reflect technical comments received from PHS and
OCR. The full text of the PHS' s comments can be found in Appendix A. The full
text of the OCR' s comments is contained in Appendix B.


OIG REPONSE TO           COMM
We agree that legitimate reasons may exist that explain why a facilty is unable to
fulfill their uncompensated care obligation. The PHS should work to develop
appropriate alternatives for such facilties. We would encourage PHS not to delay in
seeking legislative authority to administrative remedies since such remedies should be
available for use on recalcitrant facilities.
        APPENDIX A




       PUBUC HETH SERVICE
COMM       ON   TH DRA REPORT
(' 
                                            &.



 ....or'r "€


                DEPARMET OF HETH                     HUMA SERVICES                           Fu He

                                                                                             Memorandum
                Jl 2     8 19
    Date

    From        Assistant Secretary for Health


   Subjec       Office of Inspector General (OIG) Draft Reports " PHS' Oversight
                of the Rill-Burton Program, " and " Office for Civil Rights
                Oversight of the Hill-Burton Program

                Inspector General, OS


               At t ached are PHS' co           mmen ts on    the s ubj    ect   OIG dra ft   rep   or t s .
               Concerning the report on PHS' oversight of the Rill-Burton
               program, we provide responses to each of the recommendations, as
               well as technical comments. We have one technical comment on the
               report dealing with the Office for Civil Right s (OCR) oversight.
               We concur with the recommendations directed to PHS and have taken
               or plan to take actions to implement them. The Health Resources
               and Services Administration (HRSA) will coordinate information
               gathering with other organizations such as OCR and the Realth
               Care Financing Administration; revise its complaint investigation
               manua 1 to req ui re expanded comp li ance re views once a comp la i n t
               has been substantiated; maintain records for a minimum of
               5 years; review with the Office of the General Counsel issues
               relevant to the recovery of uncompensated care obligations
               these remain at the time of a post 20- year transfer of ownership;
               and seek legislative authority to return funds recovered from
               facilities back into PHS grant programs.

               For reasons delineated in the attached comments, we do not
               believe that now is the appropriate time to implement the
               recommendation calling for legislative authority to enforce
               compliance through administrative remedies. RiSA has an
               initi tive underway which should address many of the issues
               un d e r 1 y i n g t   his r e co 88 end a t ion.   If,   a t   the end 0 f      ear, the
               results of this initiative prove unsatisfactory, RiSA will                                 take
               act ion s to i 8 P 1 e 8 e n t t his r e c 0 mm end a t ion.




                                                         o. Mason, M.            Dr.
               Attachment




                                                            A -

                PUBLIC RRTR SERVICE (PH     COMMS ON    'IHE'l
                                                            OFFICE OP
    INSPECTOR        GBN
                      (OIG' DRA REPORTS " PUBLIC
      OVSIGH' OP TH HILL-BURTON PR           " OEI-
                                                                   SERVICE'S
                                                              00260. AN
         OPPICE POR CIVIL RI GH'S                           LL-B     TON
                                .. EI- 5- 9 -0 261€


General Comments€
The PHS hasreviewe the tw OIG reports on oversight of the
!tll-Buron proqram. The bulk of our coments concern the report
dealing with PHS           oversight.
We have only one technical coment on the report dealing with
Office for Civil Rights' oversight. We recomend that the third
paragraph, first sentence on page 1 be revised to read " (T)he
Hill-Burton Act authorized Pederal grants to assist States and
comuni ties in constructing needed hospitals and other health
care facilities.   This revised statement correctly notes that
the Hill-Buron program funded health care facilities other than
hospi tals          and public health centers.
OUr comments on each of the recomendations directed to PHS, and
technical comments, follow:

OIG Recommendation
PHS should €



               Develop methods for independent verification of infor.tion
               provided by facilities during substantial compliance audits
               and complaint investigations.

PHS Comment€
We agree that we can broaden our           infor.tion
                                             gathering through
coordination with other Pederal organizations that may conduct
site visits of Hill-Buron obligated facilities. To that end,
PHS' Health Resources and Services         Adnistration
                                                  (HRSA) will
coordinate these efforts with the Office for Civil Rights, the
Health Care Pinancing           Adnistration,
                                      and other relevant
organizations.
OIG Recommendation
               Expand their investigation when a comlaint  alleging
               noncompliance is substantiated or revise the " Guide to
               Conducting Substantial Compliance Reviews and Audits" to€
               ensure that auditors clearly understand that an expanded€
               compliance review should be conducted on facilities found to€
               have substantiated complaints.€



                                          A -€
                                    q., €




PHS C01ent€
We concur. HRA is     cuently revisinq the comlaint
                                                maual will
investiqation maual. One   chanqe in the revised
the reqirement to  expand compliance reviews when complaints
aqainst a facili tyhave been substantiated. BRSA expects to have
the revision completed in January 1993.
In addition, HRSA is now trackinq whether comlaint decisions are€
resolved in favor of the complainant or the
                                    1992.€
                                                 facility.
                                                      This€
procedure became effective in Karch
OIG Recnmendation
     Ensure that reqional offices maintain records for a      miim
     of 5 years after the close of a substatiated comliance
     audi t or comlaint investiqation.

PHS C01ent€
We concur. As the OIG report acknowledqes,       BR has This
                                                         already€
                                                              policy
established a policy to retain records for        years.
                                                5 €
became effective in Karch 1992.€

OIG Recommendation€
     Seek leqislative authority to enforce       comliance throuqh€
     admnistrative remedies.€
PHS Comment€
We concur in principle but believe that       ths is not appropriate€
at this time.€

There are   leqitimtereasons why some facilities have received€
little, if any, credit for uncompensated care:€

          lack of community need, e      patients are fully covered
          by third- party insurance or under a qovernental proqram,
          or there is a lack of financially eliqible applicants;

          financial inability to provide uncompensated services at€
          the reqired level;  and€

          some facilities do not charqe patients for services
          provided, but lack eliqibili ty or billinq documentation
          reqired by the requla tions to estAlish credit.
HRSA is studyinq these facilities to        deter.ne
                                               the need for€
increased technical assistance, and will develop appropriate€
alternatives to assist facilities in achievinq compliance.€
                                  A -€
   q.,




In addition, the theat ofnoncompliance.
                          legal action has been an effective
                                         No legal action has
deterrent from deliberate
been necessary to date.

Lastly, it is possible that the actions proposed in this report
( e.       fines or loss of
                        Medicare/Mecaid fundig) could result
in the closure of some facili ties, thereby resulting in the total
                                    comities.
loss of health services in those
At the end of one year, if there is not proqress in    the
development of alternatives to assist facilities in    achieving
compliance,    HR willseek legislative authority to    enforce
compliance though admnistrative remedes.
OIG Recommenqation

         uncomnsated care obligation if a deficit reins
         Seek legislation that would allow for recovery of the
                                                            at the
         time of a post year transfer.
PHS Coment
                                                           (OG ) to
We agree to contact the Office of the General Counsel
discuss the issues relevant to the enactment of such legislation
and the applicable legal imlications. In prelimary
discussions to date, OG has expressed strong concerns about the
constitutional implications of retroactive application of this
new legislation.

OIG Recommendation
                                                   retur
         Seek legislation that would allow for the €
                                                          of monies
         recovered from facilities back into PHS grant programs.€

PHS Coment
We concur.                             to develop a reqest
                HR will initiate actions                         for
legislative authority to implement this recommendation.
Technical Coments€
          The introduction on Daae 1
                                       states, " line but
          incomes are greater than the poverty Those  persons whosethan
                                                          not more
          twice the poverty line are entitled to receive services€
          wi thout charge or in accordance with a schedule of charqes.€
         This statement needs clarification. Hill-Buron
          are not reqired to provide uncomensated services€                             facilities€
         persons whose incomes are more
         these facilities choose to provide services
                                             the poverty€         th €
                                                          to levl. €
         incomes are greater but not more than double the   pesons    whose€
                                                                poverty€
         level, they may do so at no charge or at a
                                                                             reuced charge.€
         Paae 2. Daraara     states, " Honitoring of pat
         facilities involves a desk review                                Hill-Buon
         individual notices and facility published ent      accounts,
                                                         allocation plans.€

        This sentence should be modified to include the review of€
        Hill-Buron patient €
                                        informt
        same statement is included on page
                                          eligibility


                                                       6,        Since ths€  on.
        report, it €
                               should   also be mofied    paagraph 2 of the€OIG€
                                                                    aCCordgly.
        Paae 2. DaraaraD.t
                        states, " If if
                                     thean
                                         sale is to a for- profit
    entity, a waiver can be granted
                                           irrvocable trust is
    established to provide for uncompensated
   following the comletion of constrction,care.
                                              for-   TWnty years
   enti ties             or assumng control of     profit
   facili tiespurchasing
                are not reqred to provide any  Hill-Buron
   uncompensated care obligations.                                            reining
  These two sentences should be
  sale is to a for- profit entity within the 20-
                                             follows
                                                                moified as                If the
  period, a waiver can be granted if an irrevocable  year                          obligation
  established to proide for
  following the comletion ofuncomnsated   care. TWnty                              trst
  nonprofi t entities         construction, for-profit oryears
  Buron facilities arepuchasing or assumg contrl
                        not reqired to                 Hill-                       of

  uncomsated car obligations.          provide any remining
 Paae
               na numer states, " May (1, 169) of
 facili ties have                                                                  these
                  provided some uncompensated care.
 We suggest that this statement be clarified as
                                                  follows:€
  Many (1, 169) of the 1, 372 facilities have Provided some
 uncompensa ted care.

 Paae S. find€ na numer
                                    Each year PHS mails
 Uncompensa ted Services Assurance Report
                                                        states, "
 approximtely one-third of the 2, 600     (USAR) for.s to
                                                                     facilities with

                                                         A -€
outstandinq Hill-Buron obligations.
the USA,       accordq
                    to PHS, is to      red   prim purose of
                                             The
                                                   facilities of their
obliqation to provide free
Facili ties
                                 car to peons
               unable to comlete their anual
                                                     unable to pay.
                                                     obliqation are
reqired to complete       and   retur the   OSA.
We suqqest that OIG substitute the followinq lanquaqe to
accurately reflect the use and         purose of
                                          the OSAR:
 Each year PHS reqests tht all facilities in deficit
subt   an Uncomnsated Services Assurance Report (USAR).
The primry purse of the USA is to track the status of
uncompensated services      claim
                             by facilities and provide
early feedack where problem may be indicated. In
addi tion,   the USA   is used to review and approe both plans
designed to mae up       deficits and   fincial inility
claim.
The rationale beind ths suqqested
detects deficiencies in
                                            chqe is
                                               that when
                            facilities' uncomsated services
proqrams, the facilities can correct them in a timely          maer
instead of wai tinq up to 3 years until a review is conducted
at which  tim  they may lose all credit for a         correctale
deficiency .




                                A -€
  APPENDIX




COMM
         CIDRA
 OFFCE FOR
      ON TH
            RIGHT
               REORT
                                                                                                      . .




         DEPAITMENT OF HEALTH a. HUMAN SERVICES                                            Off' Of    t,. 88ta

                                                                                                 CI
                                                                                          qlnc: fOt
                                                                                          .'ngton.
DATE                    12 JUN 1992
FROM€                   Edward Mercado
                        Director
                        Oft 1ce
                                                     .--e
SUBJECT:                          Draft Report: "Pulic Health Service' s                   Oversiqht
                        ot the Hill-Burton Program"
                        Richard P. Kusserow€
                        Inspector General€
The Off1ce for Civil R1gh s reviewed your draft report on
Heal th           Service' 8 oversiqbt        of the Bill-Buon prog                                   Pulic
the tollowinq                     coment8/recommendations:                              am and renders

  - In order to put th. contents ot 1:8
    context, lanquaqe 8hould he added
                                                              Aport in the proper
                                                             outlinin  e Bill-Burton
     r.sponsibilJ.i..

     includinq OC and
                        all involved    ot                  Departntal c:omponent.,
                                             BCFA.
  - On paqe 5, Findinq '1 indicates that 80.. nur.ing homes and€
    rehabilitation tacilitie8 do not tultill their uncompen8ated€
    care obli atioD8 becuse they are unabla to attract patients
    who are                 unel. to
                       pay. An add1:t.ional              tor
    dealinq vi th this finding i. tor                       PH to
                                            encourag. recipients
                                                                        rec018fdation



    to inati =t.                                            PZ"u
    be ref.rred.
                                    a vi90Z"WI outrach            to 4is1:ribut.
    information about the facility'                         uncoen.ated care
    obli9ation to hospital. fro. Whidb indigant patients .19h


  - The raport                    con'tin a
                           rec:oDlendation that unanounced                                       site
    vi.ita be conducted. It -1. our                         exerience tht
                                                     while .uch
    visits may provide usetul data, they oft8n cause delay. in
    the invu't1CJativ8 proce8s beaua8 the data n8ed84 and
    pot.n ial intervieweas are not readil available. w. endorS8
    the poaion of this rec:o_8nda ion wh ch encourag.. PH
    to coc(rcinat. vi th OC and BClA in o!:tainin pertinent
    1ntormtion. Such an interchange of intonation would be
    ot value to all three aCJanci.. and                           would r.duce the           overlap
    in responsibilitie8 and activities.

  - In addition, PH ana OC .hould establish a mechanism throuqh
    which OCR is intormed when tacilities ara found to be out of
    compliance tor the uncompensated care o            The..                   liqation.
    cas.. may have potential civil rights violations which
    under OCR' . authorities.€
                                                                                                      tall
Thank you tor the opportunity to review and comment on this draft€
report .
